MEMORANDUM FOR THE SECRETARY

FROM:                  Gregory H. Friedman
                       Principal Deputy Inspector General

SUBJECT:               INFORMATION: Report on "Audit of the Department of Energy's
                       Consolidated Financial Statements for Fiscal Year 1997"

BACKGROUND:

The subject report provides the results of our audit.

DISCUSSION:

The Office of Inspector General audited the Department's Consolidated Statement of
Financial Position as of September 30, 1997, and the related Consolidated Statement of
Operations and Changes in Net Position for the year then ended. In the opinion of the
Office of Inspector General, these financial statements present fairly, in all material
respects, the financial position of the Department as of September 30, 1997, and the
results of operations and changes in net position for the year then ended, in conformance
with the basis of accounting described in Note 1 of the financial statements.

In accordance with Government Auditing Standards, the Office of Inspector General
issued a separate report on our consideration of the Department's system of internal
controls. We reported that a systematic process needs to be developed and implemented
to improve the method of estimating the environmental liability. Specifically, procedures
should be adopted to update the estimate through fiscal yearend and to ensure that all
known remediation costs are included. This problem was considered to be a material
reportable condition, but it did not have a material effect on the financial statements
because of corrective actions taken by the Department. We also reported that controls
over performance measure information presented in the Overview to the financial
statements need to be strengthened to ensure that information is adequately supported and
properly presented. While we also considered this matter to be a reportable condition, it
did not materially affect the Department's financial statements.

The audit disclosed a number of other conditions relating to the Department's system of
internal controls that were not considered to be reportable conditions and did not
materially affect the Department's financial statements. These matters will be
communicated to the Chief Financial Officer and to heads of field elements in separate
reports. The recommendations made in these reports are designed to strengthen internal
controls or improve operating efficiencies.

As described in Matters of Emphasis in our report on the consolidated financial
statements, the Department is faced with a number of uncertainties. The most significant
of these is the environmental liability estimate. In addition to the uncertainty inherent in


                                              4
any long-term estimate, uncertainties also exist with regard to the realization of
Departmental plans regarding funding, facility end-states, anticipated regulatory approvals,
and projected savings from productivity and efficiency improvements. Similar concerns
also exist with regard to the resolution of various administrative and legal proceedings to
which the Department is a party, including issues involving the Nuclear Waste Fund.
These actions may result in settlements or decisions adverse to the Government; however,
the outcomes of such proceedings are not currently susceptible to reasonable estimation.
The manner in which each of these matters is resolved will affect ultimate costs to the
Department.

In addition to the report on internal controls, we also issued a report on the Department's
compliance with applicable laws and regulations. The results of our tests in this area
disclosed no compliance matters reportable under applicable audit standards.

We also performed audit procedures to test compliance with the Federal Financial
Management Improvement Act of 1996. This Act requires that auditors perform tests to
determine whether the Agency has substantially complied with Federal financial
management systems requirements, applicable accounting standards, and implementation
of the United States Standard General Ledger at the transaction level. Our procedures
revealed no conditions that constituted substantial noncompliance with the Act.

MANAGEMENT RESPONSE:

Departmental Management generally concurred with the audit recommendations contained
in the Department-level internal control report and has indicated that corrective actions
will be taken where appropriate.

Attachment

cc:    Deputy Secretary
       Under Secretary
       Chief Financial Officer




                                             2
                        U.S. DEPARTMENT OF ENERGY
                       OFFICE OF INSPECTOR GENERAL




                                     AUDIT OF

                    THE U.S. DEPARTMENT OF ENERGY'S

                 CONSOLIDATED FINANCIAL STATEMENTS

                             FOR FISCAL YEAR 1997




   The Office of Inspector General wants to make the distribution of its reports as customer
        friendly and cost effective as possible. Therefore, this report will be available
            electronically through the Internet at the following alternative address:


         Department of Energy Human Resources and Administration Home Page
                               http://www.hr.doe.gov/ig


              Your comments would be appreciated and can be provided on the
                     Customer Response Form attached to the report.


                             This report can be obtained from the
                                 U.S. Department of Energy
                        Office of Scientific and Technical Information
                                         P.O. Box 62
                                Oak Ridge, Tennessee 37831




Report Number: IG-FS-98-01                                   Capital Regional Audit Office
Date of Issue: February 26, 1998                             Germantown, MD 20874




                                             3
            AUDIT OF THE U.S. DEPARTMENT OF ENERGY'S
              CONSOLIDATED FINANCIAL STATEMENTS
                      FOR FISCAL YEAR 1997




                          TABLE OF CONTENTS



                                                                   Page

REPORT OF THE OFFICE OF INSPECTOR GENERAL ............................1


REPORT OF THE OFFICE OF INSPECTOR GENERAL ON
THE DEPARTMENT'S SYSTEM OF INTERNAL CONTROLS..................4


REPORT OF THE OFFICE OF INSPECTOR GENERAL ON
COMPLIANCE WITH LAWS AND REGULATIONS................................ 18



ATTACHMENT: U.S. DEPARTMENT OF ENERGY ANNUAL REPORT




                                        4
                                   U.S. Department of Energy
                                   Office of Inspector General
                                    Office of Audit Services


            REPORT OF THE OFFICE OF INSPECTOR GENERAL


The Secretary
U.S. Department of Energy

       We have audited the accompanying Consolidated Statement of Financial Position of the
U.S. Department of Energy (Department) for the year ended September 30, 1997, and related
Consolidated Statement of Operations and Changes in Net Position for the year then ended.
These financial statements are the responsibility of the Department's management. Our
responsibility is to express an opinion on these financial statements based on our audit.

        We conducted our audit in accordance with generally accepted auditing standards:
Government Auditing Standards issued by the Comptroller General of the United States; and
Office of Management and Budget (OMB) Bulletin No. 93-06, Audit Requirements for Federal
Financial Statements, as amended. Those standards require that we plan and perform the audit to
obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes examining, on a test basis, the evidence supporting the amounts
and disclosures in the financial statements. An audit also includes assessing the accounting
principles used and significant estimates made by management as well as evaluating the overall
presentation of the financial statements. We believe that our audit provides a reasonable basis for
our opinion.

       In our opinion, the consolidated financial statements referred to above present fairly, in all
material respects, the financial position of the U.S. Department of Energy as of September 30,
1997, and the results of its operations for the year then ended in conformity with the hierarchy of
accounting principles described in Note 1 of the financial statements.

        Our audit was made for the purpose of forming an opinion on the Department's
Consolidated Statement of Financial Position as of September 30, 1997, and related Consolidated
Statement of Operations and Changes in Net Position for the year then ended. The information
presented in management's Overview and the Supplemental Financial and Management
Information sections is not a required part of the statements, but is supplementary information
required by OMB Bulletin No. 94-01, Form and Content of Agency Financial Statements. We
have considered whether this information is materially inconsistent with the above statements.
Such information has been subjected to limited auditing procedures applied in the audit of the
financial statements, and accordingly, we do not express an opinion on it. The performance
information included in management's Overview is addressed in our audit report on the
Department's system of internal controls.


                                              5
        Management has chosen for purposes of additional analysis to incorporate the Executive
Summary from the Department’s Report on Compliance with the Federal Managers Financial
Integrity Act of 1982 in its Annual Report. This Summary is not a required part of the
consolidated financial statements. While such information has been reviewed separately by the
Office of Inspector General, it has not been subjected to auditing procedures applied in the audit
of the consolidated financial statements, and accordingly, we do not express an opinion on it.



                                  MATTERS OF EMPHASIS



         As described in Note 13 of the financial statements, the Department changed its method of
estimating its environmental remediation liability for Fiscal Year 1997. The change in method
resulted in a reduction in the estimated unfunded liability of about $49 billion, from $228 billion
reported for Fiscal Year 1996, to $179 billion recorded at September 30, 1997. The primary
reasons for such change are the adoption of a remediation approach designed to accelerate
cleanup at most of the Department's sites and the change in end-state assumptions for a number of
facilities assigned to the Environmental Management (EM) Program. As with previous
estimation methods, the estimate continues to be based on assumptions regarding actions that are
to take place in the future and is highly uncertain. In addition to the uncertainty inherent in any
long-term estimate, the following factors impact the overall uncertainty of the estimate:

       •   The impact of potential changes to planned facility end-state or land-use assumptions
           could be profound.
       •   Congressional appropriations may not be received at the levels anticipated.
       •   The planned approach and scope of work for many remediation projects are subject to
           regulatory approval.
       •   Cost increases caused by future inflation may occur.
       •   Complete information as to the extent of contamination is not available for facilities
           that have not been completely characterized.
       •   The Department may be required to fund disposal costs for depleted uranium
           (including depleted uranium generated by the United States Enrichment Corporation).
       •   Projected savings attributable to efficiency and productivity improvements included in
           lifecycle cost estimates may not be achievable.
       •   Opening of the planned repository for storage of high-level waste and spent nuclear
           fuel may be delayed and projected waste volumes may exceed planned capacity.
       •   The portion of the accrued liability related to the Department's Accelerated Cleanup
           Plan is based on the adjusted mid-point of estimates derived from differing funding
           assumptions: a range of about $11 billion.




                                             6
       •   The Department's estimate of disposal fees for high-level waste was prepared during
           Fiscal Year 1995 and has not been updated to reflect major changes in assumptions.
           The estimate is to be updated during Fiscal Year 1998 in conjunction with a
           Congressionally-directed study and may increase.
       •   Remediation costs for contaminated facilities not yet assigned to the Department's
           environmental management program are based on computer modeling rather than
           lifecycle cost estimates.

         The Department also is a party to various administrative proceedings, legal actions, and
tort claims that may ultimately result in settlements or decisions adverse to the Government, as
discussed in Note 16 of the financial statements. The Office of General Counsel, in responding to
our inquiries about these matters, was not able to form a conclusion as to the likely outcome or
potential loss resulting from litigation, claims, and assessments against the Department. Readers
of the Department's consolidated financial statements should, therefore, be aware that the
statements may be affected by uncertainties concerning the outcome of claims described in Note
16, which are not currently susceptible to reasonable estimation.



                            REFERENCE TO OTHER REPORTS



        In accordance with Government Auditing Standards, we have also issued a report on our
consideration of the Department's system of internal controls and a separate report on its
compliance with laws and regulations. Both reports are dated December 29, 1997, except as they
relate to the following two items. As to Note 13, the date extends to January 30, 1998, the date
on which field work was completed on procedures required to update the environmental liability
estimate. As to Note 16, the date extends to February 19, 1998, the date through which several
motions and lawsuits were filed by various entities related to the Department’s compliance with
the Nuclear Waste Policy Act.




                                                ________________/s/___________________
                                                December 29, 1997, except for Note 13, as to
                                                which the date is January 30, 1998, and Note
                                                16, as to which the date is February 19, 1998.




                                            7
                               U.S. Department of Energy
                               Office of Inspector General
                                Office of Audit Services


      REPORT OF THE OFFICE OF INSPECTOR GENERAL
  ON THE DEPARTMENT'S SYSTEM OF INTERNAL CONTROLS


The Secretary
U.S. Department of Energy

       We audited the consolidated financial statements of the Department of Energy
(Department) for the year ended September 30, 1997, and have issued our report thereon
dated December 29, 1997, except for Note 13, as to which the date is January 30, 1998,
and Note 16, as to which the date is February 19, 1998.

        The management of the Department is responsible for establishing and maintaining
internal controls. In fulfilling this responsibility, estimates and judgments by management
are required to assess the expected benefits and related costs of internal control policies
and procedures. A system of internal controls should provide management with
reasonable, but not absolute, assurance that the following objectives are met:

       1. Transactions are executed in accordance with management's authorization and
          are properly recorded and accounted for to permit the preparation of reliable
          financial reports in accordance with applicable accounting policies and to
          maintain accountability over assets.

       2. Funds, property, and other assets are safeguarded against loss from
          unauthorized use or disposition.

       3. Transactions, including those related to obligations and costs, are executed in
          compliance with laws and regulations that could have a direct and material
          effect on the financial statements, and are in compliance with any other laws
          and regulations that Office of Management and Budget (OMB), Departmental
          management, or the Inspector General have identified as being significant and
          for which compliance can be objectively measured and evaluated.

       4. Data that support reported performance measures are properly recorded and
          accounted for to permit preparation of reliable and complete performance
          information.




                                             8
        Because of inherent limitations in any system of internal controls, errors or
irregularities may nevertheless occur and not be detected. Also, projection of any
evaluation of internal controls to future periods is subject to the risk that procedures may
become inadequate because of changes in conditions or that the effectiveness of the design
and operation of policies and procedures may deteriorate.

        In planning and performing our audit of the financial statements of the Department
for the year ended September 30, 1997, we considered its internal controls in order to
determine our auditing procedures for the purpose of expressing an opinion on the
financial statements and not to provide an opinion on the system of internal controls. Our
consideration included obtaining an understanding of the significant internal control
policies and procedures, determining whether they had been placed in operation, assessing
the level of control risk relevant to all significant account balances, and performing
sufficient tests to assess whether internal controls are effective and working as designed.
Our evaluation of the system of internal controls was conducted to determine whether it
met the objectives identified in the previous paragraph and not to provide an opinion on
the system of internal controls. Accordingly, we do not express such an opinion.

        Our evaluation of the controls for performance information was limited to those
controls designed to ensure the existence and completeness of the information. With
respect to the performance measure control objective, we obtained an understanding of
relevant control policies and procedures designed to permit the preparation of reliable and
complete performance information and assessed control risk.

        In evaluating internal controls, we considered matters reported by the Department
in compliance with the Federal Managers' Financial Integrity Act, our prior and current
audit reports, and other independent auditor reports on financial matters and internal
accounting control policies and procedures. The Appendix to this report lists performance
audit reports published by the Office of Inspector General during Fiscal Year 1997 that
were considered in our evaluation of internal controls.

        As part of our audit, we noted certain matters involving the system of internal
controls and its operation that we consider to be reportable conditions under standards
established by the American Institute of Certified Public Accountants and OMB Bulletin
No. 93-06, Audit Requirements for Federal Financial Statements, as amended.
Reportable conditions involve matters coming to our attention relating to significant
deficiencies in the design or operation of the system of internal controls that, in our
judgment, could adversely affect the Department's ability to ensure that the objectives of
internal controls, as previously defined, are being achieved. The conditions considered to
be reportable conditions are discussed in Exhibits I and II to this report.

         A reportable condition is classified as a material weakness when the design or
operation of one or more of the internal control components does not reduce to a
relatively low level the risk that errors or irregularities in amounts that would be material
in relation to the financial statement being audited, or material to performance measures or


                                              9
the aggregation of performance data, may occur and not be detected within a timely
period by employees in the normal course of performing their assigned functions. We
considered the condition discussed in Exhibit I to this report to be a material weakness.
Management should consider this weakness when preparing its yearend assurance
memorandum on management controls.

        Our consideration of the system of internal controls would not necessarily disclose
all matters in internal controls that might be reportable conditions and, accordingly, would
not necessarily disclose all reportable conditions that are also considered to be material
weaknesses as defined above.

        The audit also disclosed a number of other conditions relating to the Department's
system of internal controls that we did not consider to be reportable conditions and which
did not materially affect the Department's financial statements. These matters will be
communicated to the Office of Chief Financial Officer and to the head of field elements in
separate reports. The recommendations made in these reports are designed to strengthen
internal controls or improve operating efficiencies.

        This report is intended for the information of the management of the U.S.
Department of Energy. This restriction is not intended to limit the distribution of this
report, which is a matter of public record.




                                                  _____________/s/__________________
                                                  December 29, 1997, except for Note 13,
                                                  as to which the date is January 30, 1998,
                                                  and Note 16, as to which the date is
                                                  February 19, 1998.




                                             10
                             Material Reportable Condition
                             Findings and Recommendations


                      Environmental Remediation Liabilities


Background: The Department's estimate of environmental liabilities should reflect future
costs associated with remediation of environmental contamination existing as of the last
day of the fiscal year. In the Fiscal Year 1996 consolidated financial statements, the
Department's estimate was based primarily on the 1996 Baseline Environmental
Management Report (BEMR), a Congressionally-mandated report produced by the Office
of Environmental Management (EM). During the latter part of Fiscal Year 1996, the
Department embarked on a new vision and strategy for addressing the environmental
cleanup of its sites. This new strategy was communicated in a June 1997 Discussion
Draft, Accelerating Cleanup: Focus on 2006 (2006 Plan). This effort resulted in
significantly lower life-cycle cost estimates for most EM activities than had been reported
in BEMR. It did not include active facilities or currently excess or soon to be excess
facilities not currently in the EM program that had been included in BEMR (pipeline
facilities).

To reflect the Department's new strategy, the Office of Chief Financial Officer (CFO)
adopted a multi-faceted approach to capture all pieces of the environmental liability
estimate. The Department's environmental remediation liability at September 30, 1997,
was based on three main components:

   •   EM's 2006 Plan, which estimates life-cycle costs for the EM program;

   •   Cost estimates for currently excess or soon to be excess facilities not yet
       transferred to EM; and

   •   A cost estimate for remediation of currently active facilities.

Each of the Department's field offices was instructed to record its portion of the liability
according to instructions issued by the CFO.

Finding 1: Cost Estimates for Environmental Liabilities

       As a component of its overall system of internal controls, the Department is
       responsible for establishing controls to provide reasonable assurance that estimates
       supporting accruals of unfunded environmental liabilities are complete and readily
       verifiable. The Department's system for estimating environmental remediation
       costs did not completely and accurately capture the Department's environmental
       liability as of September 30, 1997. The following are examples of the problems
       our audit identified:



Exhibit I, Report on Internal Controls                                             Page 7
                            Material Reportable Condition
                            Findings and Recommendations


           •   The EM component of the environmental liability was based on data
               submitted to Headquarters in February of 1997 in preparation for issuance
               of the June Discussion Draft of the 2006 Plan and was not updated through
               the end of the fiscal year.

           •   None of the five field offices included in our test work had documented
               that each facility known to be contaminated had been included in one of the
               three components of the environmental liability.

           •   The recorded liability at September 30, 1997, before audit adjustments,
               omitted most of the disposal fees (about $5 billion) associated with
               high-level waste and spent nuclear fuel.

           •   Errors in removing productivity projections and recording program
               direction costs were made by certain field offices when the liability was
               initially recorded.

           •   The methodology used for developing support costs for the currently active
               facilities component of the estimate produced incorrect results.

           •   Headquarters staff members recorded comments that questioned the
               completeness and accuracy of the 2006 Plan project cost estimates and
               waste volume data. Despite the effort devoted to this review, these
               comments were never addressed or specifically considered during
               preparation of the June Discussion Draft of the 2006 Plan.

           •   Departmental officials within the programs currently responsible for
               pipeline and active facilities were not actively involved in preparing or
               reviewing the liability estimates associated with these facilities.

           •   The Department did not make provision for the effect of several
               uncertainties that impact the liability, including potential delays in opening
               or capacity issues at planned waste repositories or the availability of
               funding for various privatization projects.

       These conditions occurred because the Department did not have an adequate
       system of internal controls in place to ensure that the environmental liability
       estimate was complete and accurate. As a result, the Department's environmental
       liabilities, before audit adjustments, were understated by about $7.5 billion, and the
       uncertainty related to the estimated costs for environmental liabilities was
       increased.

Exhibit I, Report on Internal Controls                                            Page 8
                             Material Reportable Condition
                             Findings and Recommendations



       Recommendations: The Department should:
               1. Develop and implement a process to update the environmental liability
                  estimate through fiscal year end;
               2. Ensure that validation procedures are sufficient to determine that all
                  contaminated facilities are included in the environmental liability
                  estimate;
               3. Set up a quality control program to identify and correct errors in the
                  cost estimates upon which the environmental liability is based;
               4. Clarify lines of authority and responsibility for active and pipeline
                  facilities and develop procedures to involve responsible program
                  officials in estimating the liability associated with these facilities; and
               5. Analyze the impact of uncertainties with regard to the estimate and
                  record or disclose the results as appropriate.

       Management Reaction: Management generally concurred with the
       recommendations and agreed to instruct the field elements in future guidance to
       update their estimates through the end of the fiscal year, strengthen internal
       controls for Plan 2006 work, increase program official involvement, reemphasize
       to the field the importance of documenting inclusion of all facilities, amend the
       financial statements to reflect audit adjustments, and evaluate the need for
       disclosure of uncertainties.

       Auditor Response: Management's planned actions for future periods are
       responsive to our recommendations. In addition, in response to draft audit
       findings issued on these matters, the Department performed supplementary
       yearend analyses and reconciliation work and recorded audit adjustments necessary
       to ensure that the liability recorded in the financial statements was materially
       correct. We were required to extend our fieldwork in this area through
       January 30, 1998 to consider these additional actions taken by the Department.




Exhibit I, Report on Internal Controls                                              Page 9
                                Reportable Conditions
                            Findings and Recommendations


                     Performance Measurement Reporting


Background: In accordance with OMB guidance, each annual financial statement should
include a narrative Overview of the reporting entity. This Overview should provide a
clear and concise description of the reporting entity, its mission, activities,
accomplishments, and overall financial results and condition. It should also include
information on whether and how the mission of the reporting entity is being accomplished.
The performance data presented in the Overview of the Fiscal Year 1996 consolidated
financial statements was based primarily on commitments drawn from the Secretary's
Performance Agreement with the President (Agreement). The Overview presented the
Department's commitments, planned goals necessary to accomplish the commitment, and
results achieved during the fiscal year. Although the Agreement continued to be used as
the basis for reporting performance information, the Department elected to modify the
Overview presentation method significantly for its Fiscal Year 1997 consolidated financial
statements.

The Department relied on a computer database (system) to collect and report performance
information for use in the Overview in Fiscal Year 1996 and Fiscal Year 1997. Our Fiscal
Year 1996 Audit of the Department's Consolidated Financial Statements identified
problems with the accuracy, validation, and maintenance of data in that system (see Office
of Inspector General Report No. CR-FS-97-02). Management generally concurred with
the audit findings and agreed to take corrective action in the form of Departmental
guidance and training. Despite efforts to provide guidance and additional training to
program officials, problems with data used to support performance measures persist.

Finding 2: Performance Measure Reporting

       OMB Bulletin No. 94-01, Form and Content of Agency Financial Statements,
       requires the Overview to the financial statements to communicate whether and
       how the Department is accomplishing its missions using explicit measures of
       performance. Both OMB Bulletin No. 94-01 and Statement of Federal Financial
       Accounting Concepts No. 2 (SFFAC 2) require that performance measures
       presented in the financial statements contain certain attributes in order to be useful
       to readers of the financial statements. We found in many cases that the usefulness
       of the programmatic performance measures presented in the financial statements
       was limited. For example, we found that the performance measures presented in
       the Overview:




Exhibit II, Report on Internal Controls                                         Page 10
                                Reportable Conditions
                            Findings and Recommendations



           •   Generally did not present the Department's short-term or long-term goals
               or make comparisons to such goals and did not sufficiently relate results to
               the Department's missions, goals or objectives. Instead, the Overview
               presented a list of accomplishments that were not directly identifiable with
               the Department's missions, goals or objectives.

           •   Excluded specific performance information regarding the Federal Energy
               Regulatory Commission (FERC) and the Department's power marketing
               administrations (PMAs).

           •   Were not limited to the most significant objectives or valued attributes of
               the Department. For example, the Science and Technology section of the
               Overview included results of a $40 million program and measures on
               training that, while by themselves may be important accomplishments, are
               not necessarily significant objectives of the Department.

           •   Provided few negative results and no trend data.

           •   Often lacked the explanatory information needed to help readers
               understand the significance of the measures.

           •   Were not always objective or measurable. For example, certain measures
               indicated that the Department supported, enhanced or facilitated some
               objective.

       The Department's method of summarizing data from the Agreement focused on
       results rather than the measurement of performance against goals and in many
       cases eliminated essential detailed goal information. As a result, the presentation
       of the Overview limits financial statement readers' ability to assess the
       Department's performance during Fiscal Year 1997.

       In the future, inclusion of the key attributes in the Department's method of
       reporting performance measures will be essential to successful implementation of
       upcoming reporting changes required by OMB Bulletin No. 97-01, Form and
       Content of Agency Financial Statements. Beginning with Fiscal Year 1998, the
       Department will be required to report performance measures that:

           •   Are consistent with measures previously included in budget documents and
               other materials related to the implementation of the Government
               Performance and Results Act;




Exhibit II, Report on Internal Controls                                         Page 11
                                Reportable Conditions
                            Findings and Recommendations


           •   Provide information about the cost effectiveness of programs;

           •   Include an explanation of what needs to be done and what is planned to be
               done to improve financial and program performance; and

           •   Are linked to the programs presented in the Statement of Net Cost.


       Recommendation: The Department should review and incorporate in its
       preparation of performance measures the OMB and SFFAC requirements ensuring
       that it communicates whether and how the Department is accomplishing its
       missions, thereby enhancing the usefulness of the Overview.

       Management Reaction: Management concurred with the recommendation. The
       Department is working to improve the performance measures and the Overview
       and will use the new strategic plan to present short and long-term goals and relate
       accomplishments to missions, goals and objectives. Management has agreed to
       include performance results for FERC and the PMA's performance in future
       reports; will work to address the problem of specific measures and performance;
       and include further explanatory information needed to help readers understand the
       significance of measures. The Department will also provide more trend data and
       report appropriate negative results to clearly set forth performance.

       Auditor Comments: Management's planned actions are responsive to our
       recommendation.


Finding 3: Collection and Support of Performance Measure Information

       OMB Bulletin No. 94-01 requires the Department to maintain adequate supporting
       documentation for its performance measures and retain such documentation in a
       manner suitable for audit. As a component of its overall system of internal
       controls, the Department is also responsible for establishing controls to provide
       accurate, complete, and timely performance measure information. As previously
       reported in the Office of Inspector General's FY 1996 Headquarters-level
       management report (CR-FS-97-02), performance information in the Department's
       system was not always supported, accurate, complete, or up-to-date. For
       example:




Exhibit II, Report on Internal Controls                                        Page 12
                                Reportable Conditions
                            Findings and Recommendations



           •   Information indicating that the Department exceeded its savings goals for
               energy efficiency and renewable energy efforts was based on a draft report
               of Fiscal Year 1996 results. As a result of our request for data to support
               Governmentwide energy savings, program officials reevaluated their
               submission and revised previously reported savings downward by over
               $170 million. Reported annual savings of $10 billion in the category of
               consumers' energy costs were not adequately supported.

           •   The system contained information indicating that the Department was on
               track to meet Department of Defense weapons alteration, modification, and
               surveillance schedules. However, the responsible program manager
               reported this based on his personal knowledge, had no support for the
               information reported, and informed us that he was not aware of the
               requirement to maintain support for performance measures.

           •   The system also contained information indicating that the Department had
               met its Fiscal Year 1997 goal with regard to the award of performance-
               based management contracts. The claimed results were supported by a list
               prepared from memory that was not supported by documentary evidence.
               Two cited examples of performance-based contracts were actually contract
               modifications that contained performance-based attributes adopted in Fiscal
               Year 1996. One contract listed as an example was not a performance-
               based management contract and had been originally awarded in the 1960s.

           •   Because the system was not completely updated on a timely basis as
               required, the Department could not rely on it to generate the Overview and
               was forced to obtain more accurate and current information directly from
               the program offices.

           •   A discrete set of supporting information was not generally available for
               audit verification. Support was often assembled from numerous sources
               only after auditor requests for supporting data.


       These problems occurred because the Department had not fully developed a
       system of internal controls for ensuring accurate and timely reporting of
       performance information in the Overview. As a result, the Department continues
       to risk reporting information in the Overview and supplemental information that
       does not present an accurate and up-to-date picture of how it is accomplishing its
       missions.




Exhibit II, Report on Internal Controls                                        Page 13
                                Reportable Conditions
                            Findings and Recommendations


       Recommendation: We recommend that the Department strengthen internal
       controls to ensure the Headquarters program offices follow Departmental guidance
       on preparing and reporting accurate and current performance information.

       Management Response: Management concurred with the recommendation and
       recognized the potential weakness. The Department is improving and management
       is hopeful that audit involvement will result in further enhancements to the
       reporting processes. The Department's performance measure information system,
       if used appropriately, can provide a greater level of assurance that managers have
       read reports of results and approve of system inputs. The Department's philosophy
       has been that managers who are accountable must ensure that results are
       accurately reported. In Departmental guidance for development of commitments
       for Fiscal Year 1998, management emphasized that performance goals (measures)
       should be specific, quantified, stretching, and auditable.

       Auditor Comments: Management's planned actions are responsive to our
       recommendation.




Exhibit II, Report on Internal Controls                                      Page 14
                                Reportable Conditions
                            Findings and Recommendations



Report
Number                             Report Title                     Date Report Issued

IG-0398         Special Report on the Audit of the Management of November 21, 1996
                Department of Energy Construction Projects

IG-0399         Audit of the U.S. Department of Energy's            January 8, 1997
                Identification and Disposal of Nonessential Land

IG-0400         Summary Audit Report on Contractor Employee         January 27, 1997
                Relocation and Temporary Living Costs

IG-0402         Audit of the Management of the Department of        April 1, 1997
                Energy's Leased Administrative Facilities

IG-0403         Audit of the Use of Intra-Department Requisitions   May 2, 1997

IG-0404         Audit of Department of Energy Contractor            May 7, 1997
                Occupational Injury and Illness Reporting
                Practices

IG-0405         Audit of the Savannah River Site's Quality Control May 20, 1997
                Program for Groundwater Sampling

IG-0407         Audit of the Department of Energy's Scientific and June 17, 1997
                Technical Information Process

IG-0408         Audit of Shutdown and Transition of the Mound       June 24, 1997
                Plant

IG-0409         Audit of the Western Area Power Administration's    June 25, 1997
                Contract With Basin Electric Power Cooperative

IG-0410         Audit of Environmental Restoration at the Los       July 15, 1997
                Alamos National Laboratory

IG-0411         Audit of the Contractor Incentive Programs at the   August 13, 1997
                Rocky Flats Environmental Technology Site

CR-B-97-01      Audit of the Department of Energy's Warehouse       January 28, 1997
                Space




Exhibit II, Report on Internal Controls                                     Page 15
                                           16




Report
Number                             Report Title                    Date Report Issued

CR-B-97-02      Audit of Department of Energy's Contractor         April 4, 1997
                Salary Increase Fund

CR-B-97-03      Followup Audit on the Procurement of Support       May 16, 1997
                Services for the Energy Information
                Administration

CR-B-97-04      Audit of Controls Over the ADP Support Services    August 25, 1997
                Contract

ER-B-97-01      Audit of Economic Development Grants and a     October 22, 1996
                Cooperative Agreement With East Tennessee Not-
                for-Profit Organizations

ER-B-97-02      Audit of the Department of Energy's Grant for      February 14, 1997
                Economic Development at the Mound Plant

ER-B-97-03      Audit of Proposal to Acquire Land at the Fernald   June 5, 1997
                Environmental Management Project

ER-B-97-04      Audit of Selected Hazardous Waste Remedial         August 11, 1997
                Actions Program Costs

WR-B-97-01      Audit of Electrical System Construction Projects   November 6, 1996
                at the Nevada Operations Office

WR-B-97-02      Audit of Bus Service Subsidies at the Idaho        November 7, 1996
                National Engineering Laboratory

WR-B-97-03      Audit of Groundwater Monitoring at Hanford         November 15, 1996

WR-B-97-04      Audit of the Use of Hanford Site Railroad          March 20, 1997
                System

WR-B-97-05      Audit of Work Force Restructuring Under            May 6, 1997
                Section 3161 of the National Defense
                Authorization Act




Exhibit II, Report on Internal Controls                                    Page 16
                                           17




Report
Number                             Report Title                 Date Report Issued

WR-B-97-06      Audit of Renovation and New Construction        June 9, 1997
                Projects at Lawrence Livermore National
                Laboratory

WR-B-97-07      Audit of Desktop Computer Acquisitions at the   August 25, 1997
                Idaho National Engineering and Environmental
                Laboratory




Exhibit II, Report on Internal Controls                                 Page 17
                                            18


                              U. S. Department of Energy
                              Office of Inspector General
                                Office of Audit Services


     REPORT OF THE OFFICE OF INSPECTOR GENERAL ON
        COMPLIANCE WITH LAWS AND REGULATIONS

The Secretary
U.S. Department of Energy

       We audited the consolidated financial statements of the U.S. Department of
Energy (Department) for the year ended September 30, 1997, and have issued our report
thereon dated December 29, 1997, except for Note 13, as to which the date is
January 30, 1998, and Note 16, as to which the date is February 19, 1998.

        We conducted our audit in accordance with generally accepted auditing standards;
the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; and Office of Management and
Budget (OMB) Bulletin No. 93-06, Audit Requirements for Federal Financial
Statements, as amended. Those standards require that we plan and perform the audit to
obtain reasonable assurance about whether the financial statements are free of material
misstatements. Providing an opinion on compliance with certain provisions of laws and
regulations was not an objective of our audit, and accordingly, we do not express such an
opinion.

         The management of the Department is responsible for complying with applicable
laws and regulations. As part of obtaining reasonable assurance about whether the
consolidated financial statements were free of material misstatements, we performed tests
of its compliance with certain provisions of laws and regulations, noncompliance with
which could have a direct and material effect on the determination of financial statement
amounts, and certain other laws and regulations specified in OMB Bulletin No. 93-06, as
amended, including the requirements referred to in the Federal Financial Management
Improvement Act (FFMIA) of 1996.

        The results of our tests of compliance with the laws and regulations described in
the preceding paragraph disclosed no instances of noncompliance required to be reported
under Government Auditing Standards and OMB Bulletin No. 93-06, as amended.

       Under FFMIA, we are required to report whether the Department's financial
management systems substantially comply with the Federal financial management systems
requirements, applicable accounting standards, and the United States Standard General
Ledger at the transaction level. To meet this requirement we performed tests of
compliance using the implementation guidance for FFMIA issued by OMB on


Exhibit II, Report on Internal Controls                                       Page 18
                                             19


September 9, 1997. The results of our tests disclosed no instances where the
Department's financial management systems did not substantially comply with the three
requirements discussed in the preceding paragraph.

     This report is intended for the information of the U.S. Department of Energy.
However, this report is a matter of public record, and its distribution is not limited.




                                                  ____________/s/___________________
                                                  December 29, 1997, except for Note 13,
                                                  as to which the date is January 30, 1998,
                                                  and Note 16, as to which the date is
                                                  February 19, 1998.




Exhibit II, Report on Internal Controls                                         Page 19
                                            20


                                                               Report No. IG-FS-98-01

                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we
have any questions about your comments.

Name ___________________________              Date_____________________________

Telephone _______________________            Organization_______________________

When you have completed this form, you may telefax it to the Office of Inspector General
at (202) 586-0948, or you may mail it to:

                                   Office of Inspector General (IG-1)
                                         Department of Energy
                                        Washington, DC 20585

                                      ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.




Exhibit II, Report on Internal Controls                                        Page 20
